                                           NATIONAL SCIENCE FOUNDATION
                                           OFFICE OF INSPECTOR GENERAL
                                             OFFICE OF INVESTIGATIONS

                                      CLOSEOUT MEMORANDUM

 Case Number: A12020007                                                          Page 1 of 1


         We received an allegation that a PI altered (falsified) letters of collaboration in an
         NSF proposal he submitted from his company. We confirmed three letters in that
         proposal and an additional two letters in an earlier proposal had been altered in a
         way that met NSF's definition of falsification. The PI had not sought permission
         from the authors of the letters to alter their letters and submit them with proposals
         for which they were not originally intended, nor had he subsequently informed them
         he did so.
         We referred the case to NSF for adjudication, with recommendations to make a
         finding ofresearch misconduct and take additional actions. NSF concurred with
         our recommendations and took several actions in response. Accordingly, this case is
         closed with no further action taken. Our Report of Investigation, NSF's
         adjudication, and this Closeout Memorandum constitute the documents for the case
         closeout.




NSFOIG Form 2 (11/02)
                                  NATIONAL SCIENCE FOUNDATION
                                       4201 WILSON BOULEVARD
                                      ARLINGTON, VIRGINIA 22230




    OFFICE OF THE
                                                                               NOV 1 8 Z013
   DEPUTY DIRECTOR




CERTIFIED MAIL --RETURN RECEIPT REQUESTED




       Re:         Notice of Research Misconduct Determination


Dear Dr.   IIIII
       In 2011 and 2012, you served as a Principal Investigator ("PI") on two
submitted for        to the National Science Foundation ("NSF") both entitled,

                                    (proposals                        As documented in the
attached investigative report prepared by NSF's Office oflnspector General ("OIG"), these
proposals contained falsified material.

Research Misconduct and Proposed Sanctions
        Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification,
or plagiarism in proposing or performing research funded by NSF ... " 45 CFR § 689.l(a). A
finding of research misconduct requires that:

       (1) There be a significant departure from accepted practices of the relevant research
           community; and
       (2) The research misconduct be committed intentionally, or knowingly, or recklessly;
           and
       (3) The allegation be proven by a preponderance of evidence.

45 CFR § 689.2(c).

      Your proposals included altered letters of collaboration originally submitted by you for
an SBIR proposal. I therefore conclude that your actions meet the definition of "research
misconduct" set forth in NSF's regulations.
                                                                                              Page2
        Pursuant to NSF regulations, the Foundation must also determine whether to make a
finding of misconduct based on a preponderance ofthe evidence. 45 CFR § 689.2(c). After
reviewing the investigative report, NSF has determined that, based on a preponderance of the
evidence, your actions were committed intentionally and constituted a significant departure from
accepted practices of the relevant research community. I am, therefore, issuing a finding of
research misconduct against you.

        NSF's regulations establish three categories of actions (Group I, II, and III) that can be
taken in response to a finding of misconduct. 45 CFR § 689.3(a). Group I actions include
issuing a letter of reprimand; conditioning awards on prior approval of particular activities from
NSF; requiring that an institution or individual obtain special prior approval of particular
activities from NSF; and requiring that an institutional representative certify as to the accuracy of
reports or certifications of compliance \vith particular requireme11ts. 45 CFF'- § 689.3(a)(l).
Group II actions include award suspension or restrictions on designated activities or
expenditures; requiring special reviews of requests for funding; and requiring correction to the
research record. 45 CFR § 689.3(a)(2). Group III actions include suspension or termination of
awards; prohibitions on participation as NSF reviewers, advisors or consultants; and debarment
or suspension from participation in NSF programs. 45 CFR § 689.3(a)(3).

        In determining the severity of the sanction to impose for research misconduct, I have
considered the_ seriousness of the misconduct, our determination that it was committed
intentionally, and the fact that it was part of a pattern of misconduct. I have also considered the
fact that your actions had a minimal impact on the research rec.;,ord. 45 CFR § 689.3(b).

       After assessing the relevant facts and circumstances of this case, I am taking the
following actions against you:

       (1) Until October 31, 2014, you must provide certifications to the OIG that any proposal
           or report you submit to NSF as a PI or co-PI does not contain plagiarized, falsified, or
           fabricated material;

      . (2) By October 31, 2014, you must complete a comprehensive responsible conduct of
            research training course, and provide documentation of the program's content to the
            OIG. The instruction should be in an interactive format (e.g., an instructor-led
            course) and should specifically include a discussion on falsification; and

       (3) Until October 31, 2014, you are prohibited from serving as a reviewer, advisor, or
           consultant for NSF.

       The certifications and training documentation should be submitted in writing to NSF's
OIG, Associate Inspector General for Investigations, 4201 Wilson Boulevard, Arlington,
Virginia 22230.                                             ·
                                                                                             Page3
· Procedures Governing Appeals
          Under NSF's regulations, you have 30 days after receipt of this letter to submit anappeal
 of this decision, in writing, to the Director ofthe Foundation. 45 CFR § 689.10(a). Any appeal
 should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
 Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, this
 decision will become finaL

        For your information, we are attaching a copy of the applicable regulations. If you have
 any questions about the foregoing, please c a l l - , Assistant General Counsel, at (703)
 292-8060.



                                                      Sincerely,




                                                      Fae Korsmo
                                                      Senior Advisor




 Enclosures
    Investigative Report
 - 45 C.P.R. Part 689
Sensitive                                                                 Sensitive




        National Science Foundation
         Office of Inspector General




                 Report of Investigation
                Case Number A12020007

                          March 29, 2013

                This Report of Investigation is provided to you
                           FOR OFFICIAL USE ONLY.
 It contains protected personal information, the unauthorized disclosure of which
 may result in personal criminal liability under the Privacy Act, 5 U.S.C. § 552a.
 This report may be further disclosed within NSF only to individuals who must
 have knowledge of its contents to facilitate NSF's assessment and resolution of
 this matter. This report may be disclosed outside NSF only under the Freedom of
 Information and Privacy Acts, 5 U.S.C. §§ 552 & 552a. Please take appropriate
 precautions handling this report of investigation.
NSF OIG Form 22b (1113)
                                 Executive Summary

Allegation:          Falsification.
OIG Investigation:        OIG confirmed the Subject falsified (altered) letters of
collaboration provided to him for an SBIR project and submitted them with his two
NRI proposals.
       The Act: The Subject falsified letters of collaboration in two proposals.
       Intent: We concluded the Subject acted purposely (intentionally).
       Significant Departure: The Subject's falsification represents a significant
       departure from accepted practices.
       Sta11dal-=d of PI-oof: A prepo11derallCe of tl1e e;ride11ce standard        our
       conclusion that the Subject committed research misconduct.
       Pattern: The subject's falsification of five letters submitted in two proposals
       represents evidence of a pattern of misrepresenting his collaborators'
       intended contributions.
OIG Recommendations:
   •   Send a letter of reprimand to the Subject informing him that NSF has made a
       finding of research misconduct.
   •   Complete a responsible conduct of research trmmng program and provide
       documentation of content within 1 year. The instruction should be in an
       interactive format (e.g., an instructor-led course) and specifically include
       falsification.
For a period of 1 year:
   •   Require for each document (proposal, report, etc.) to which the Subject
       contributes for submission to NSF (directly or indirectly),
          o The Subject to submit a contemporaneous certification that the
            document does not contain plagiarism, fahification, or fabrication.
   •   Prohibit the Subject from serving as a reviewer, advisor, or consultant for
       NSF.




                                           2
                                     OIG Investigation

       We were notified that the letters of collaboration in the Subject's! NRI
proposal2 (PI) appeared to have been altered (falsified). We reviewed the letters of
collaboration for PI and confirmed several inconsistencies that supported the
allegation, including the existence of unusual blank spacing where it appears text
was removed and an inconsistency in the dates of the letters. PI contained five
letters of collaboration, three of which, designated 1I-13,3 had these
inconsistencies. 1I-13 were all dated in early June 20Il. In contrast, the other two
(apparently unaltered) letters were dated October and November of 20II and were
provided by the two co-Pis. PI was received by NSF Feb IO, 20I2, so only the two
co-Pis' letters appeared to be recent with respect to the submission.
       Upon checking the Subject's proposal history, we learned PI was a
resubmission of P2, 4 which was received by NSF on Nov IO, 20I1.5 P2 contained
nine letters of collaboration, including 1I-13 and two additional letters that
appeared altered (14-15). 6 , 7 We considered 14-15 potentially falsified because the
dates of 14 and 15 are consistent with 1I-13 (Jun 20II) and 14-15 also contained
some blank spaces where it appeared text was removed, similar to 1I-13. The
Subject previously submitted a proposal (P3) to NSF's SBIR program, s which was
received by NSF on Jun IO, 20Il. P3 contained six letters of collaboration,
including unaltered versions of 1I & 13-15.9, 1o
       We contacted the authors of letters 1I-15 to confirm the authenticity of their
original letters and to ascertain if the Subject requested their permission, or
informed them of his intention, to reuse altered versions of their letters to indicate
their collaboration for his NRI project. All five authors confirmed they had offered
to participate on the Subject's SBIR project (P3) and had submitted letters to him
indicating their willingness to work with him on that project. Of the five authors,
only two (authors of 1I and 14) recalled the Subject mentioning other research
projects, and none recall being specifically asked by the Subject if he could use their




                                             un                                          and dated
                                             and is dated Jun 2, 2011.

        was                                  it was submitted after the NRI
   6 L4 is from                                                                                and
dated Jun 8, 2011.




removed from the letters and subsequently submitted with proposals P2 and Pl.
   10 We note the subject requested L2 for the SBIR proposal (P3), but did not include it with that

submission. Instead, he altered it and submitted it with the NRI proposals Pl and P2.

                                                 3
letters for another project, although one was unsure (author of Ll). The remaining
three authors (of L2-L3, L5) stated their letter was intended exclusively for the
SBIR project and not for any other project. No author said the subject asked them if
he could alter their letters for reuse in another proposaL 11
                                         Subject's response
       We contacted the subject, who statedl2 the letters he submitted with the
SBIR proposal (P3) were all original. He did not ask the authors' permission to use
their letters in another proposal, nor did he ask for permission to alter their letters.
He did not separately request letters of collaboration for his NRI proposals (P2 and
its re-submission Pl), but, due to time constraints, reused the letters he had from
them. He did not directly answer our questions about his apparent alteration of the

letters and replace them with NRI-specific information. Likewise, he intended to
solicit updates from the authors and replace the altered 'draft letters' when the
updated letters were received. The first NRI submission (P2) was made with the
'draft letters' and, in the resubmission (Pl), he said he intended to remove the 'draft
letters,' but said he removed the wrong letters [the unaltered ones] in his haste to
meet NSF's deadline.


                                       OIG's Assessment

          Regarding letters of collaboration, NSF's GPG Chapter II.C.2.d.(iv))
states:
        Any substantial collaboration with individuals not included in the
        budget should be described and documented with a letter from each
        collaborator, which should be provided in the supplementary
        documentation section of the FastLane Proposal Preparation Module.
        Collaborative activities that are identified in the budget should follow
        the instructions in GPG Chapter II.D.4.
With respect to letters of support, NSF states in the GPG Chapter II.C.2.j:
       Letters of support submitted in response to a program solicitation
       requirement must be unique to the specific proposal submitted and
       cannot be altered without the author's explicit prior approval.




    11 Only one of the five authors (L4) said if he would have been asked, he would have agreed to let
the Subject alter and reuse his letter on another project.
    12 Tab 3; note our letter to the subject is included as an attachment in the subject's response

-      response). Since we did not receive a response from the subject, we contacted him and learned
his office had moved. Thus, the subject's address on our letter is incorrect, and we corresponded with
the subject via email afterward. In the course of that email correspondence (Reletter and Tabs 1-3),
the subject provided some explanation of the different versions of letters.

                                                  4
        There is nothing in NSF's regulations to suggest that letters of collaboration
should not be held to the same uniqueness standard as letters of support. The PI
falsified and submitted five letters of collaboration in two NRI proposals that were
not specific to that proposal, but instead, were intended by their authors to used for
his earlier SBIR proposal. None of those authors were asked, nor gave permission,
for their letters to be altered and submitted with another project, and most authors
confirmed they would not have collaborated with the Subject on his NRI proposals.
The content alterations were slight to moderate in size, but had the effect of making
the letters appear broader than intended-the removed text was specifically
relevant to the SBIR project. As noted above, the dates of the original letters are
consistent with the time-frame in which P3 was submitted, but not PI or P2, which
contain additional (unaltered) letters consistent with those submission dates.
        We note the letters of collaboration are part of the PI's total research effort,
they are partially representative of the PI's ability to ensure the research is carried
out. The Preamble for Research Misconduct Policy issued by the Executive Office of
the President states "misrepresentation of a research's qualifications or ability to
perform the research in grant applications or similar submissions may constitute
falsification or fabrication in proposing research."l3 Thus, we consider the Subject's
alterations of the letters of support an act of falsification of information pertinent to
his ability to conduct the research, and therefore meet NSF's definition of
falsification.
       The subject did not accept total responsibility for the alteration (falsification)
of the letters, going so far as to state he only intended to alter them, when, in fact,
the evidence shows he actually did alter them. He admitted he did not seek
permission to reuse or alter any of the letters originally submitted for P3. His
defense is that he did not get authentic letters from the authors because of time
deadlines. 14 However, the subject had sufficient time to substantially edit the
proposal (our software identified approximately 49% similarity between the P3 and
P2 proposals), so he could have contacted his authors, asked if they would support
him in a similar effort in another NSF program, and asked for expedited letters via
email, fax, or express delivery of mail. Likewise, he had sufficient time to ask for
permission to edit and reuse their SBIR letters. He did neither-he falsified and
reused the authors' letters without informing them or seeking their permission.
Furthermore, he had one yearl5 to prepare his resubmission (PI), so he had plenty
of time to ask the authors for revised, original letters of collaboration, but did not do
so and again submitted falsified letters of collaboration.


       NSF's Research Misconduct Regulation states that a finding of misconduct
requires: (I) there be a significant departure from accepted practices of the relevant


   13   65 FR 76260, Other Comments section, p. 4; effective Dec 6, 2000.
   14   The time between the declination of P 3 and the submission of P2 was 8 days.
   15   Program Solicitation NSF-11-553.

                                                   5
research community; (2) the research misconduct be committed intentionally, or
knowingly, or recklessly; and (3) the allegation pe proven by a preponderance of the
evidence.l6
                                             The Act
       The Subject received five letters of collaboration, written by their authors
explicitly for P3 and falsified them and submitted them to NSF in two proposals (P2
and Pl). Comparison of the falsified letters with the original letters shows them to
be copies except for the blank spaces that correspond with text removed to make the
letters more general (the original letters' SBIR-specific text was removed). All
authors confirmed they provided their letters to the Subject for P3 and were not
asked or informed about changes to the letters to use for other research projects.
                                                                      r-n~r
                                                                      "' ......... '-"'- .....
                                                                                                  ''
                                                                                                 rnn                     ~11n1Pf"1T
                                                                                                 '-' ......................................
                                                                                                                                                               '
                                                                                                                                            J ........ .....,....,


falsified five letters of collaboration submitted in two proposals.
                                             Intent
       The Subject received the letters of collaboration for his SBIR proposal and
used those letters (with the exception of L2) as evidence of his collaborators' support
for P3. The Subject subsequently falsified those letters and included them in his
two NRI proposals. However, because the original letters were specific to the SBIR
proposal, in order to better facilitate the letters applicability to the NRI proposals,
the Subject removed specific references to the SBIR project.               This action
demonstrates a specific, planed purpose for the falsification. Given the Subject's
acknowledgement that he intended to use the 'draft', i.e., falsified, letters as place
holders, we conclude the Subject acted purposefully.
                                      Significant Departure
       Using the preponderance of evidence standard, we conclude the Subject
purposefully falsified five letters of collaboration and submitted them in two
proposals to NSF. In doing so, the Subject significantly departed from the accepted
practices of his research community and NSF. Indeed, the majority of the authors
of the letters said they would not have endorsed the Subject using their letters for
other projects. As noted above, NSF expects letters of support to be specific to the
proposal in which they are submitted. Accordingly, we conclude that the Subject
purposefully falsified and, hence, committed research misconduct.


                                OIG's Recommended Disposition

      In deciding what actions are appropriate when making a finding of research
misconduct, NSF must consider several factors. These factors include how serious




   16   45 C.F.R. § 689.2(c).

                                               6
the misconduct was; degree of intent; whether it was an isolated event or part of a
pattern; its impact on the research record; and other relevant circumstances.l7
                                            Seriousness
        As we noted above, we concluded the preponderance of evidence standard
supports the conclusion that the Subject acted purposefully when he submitted
falsified letters with his proposals. NSF's reviewers and program managers need
accurate information from Pis to fully assess the merits of a proposal, and the
letters of collaboration are important for that assessment. The Program Director
commented on the seriousness and how it affected his work:
         I view this as a serious breach and the proposer has to be made aware
         that this is totally unacceptable behavior, if confirmed. The NRI
         program has strict limitations on Pis and co-Pis and it is conceivable
         that inclusion in a proposal without the knowledge of the investigator
         could jeopardize other, properly-submitted proposals_ Is
Therefore, we conclude the falsification of five letters of collaboration is sufficiently
serious to warrant a finding of research misconduct.
                                              Pattern
       The Subject falsified five letters and included them in two proposals to NSF.
The Subject has submitted only the three proposals discussed in this report, so
there is no additional pattern outside of what is discussed herein.
                                Impact on the Research Record
     The effect on the research record as a result of the Subject's actions was
minimal as the proposals were declined.


          The Subject's Response to OIG's Draft Report of Investigation

      The Subject acknowledged he altered the letters, but said he never intended
to submit them to NSF. 19 He said the letters were intended as examples for the
authors, but due to a series of mistakes, they were submitted to NSF. He said he
meant to only submit the recent letters (Appendix A 20). He provided a "Time Line"


    11 45 C.F.R. § 689.3(b).
    18 Because the Subject included letters of collaboration from the co-Pis, as well as his other
collaborators, the Program Director is referring to the possibility of those co-Pis being included on
proposals of which they were unaware through falsified letters and thus be ineligible for another,
legitimate NRI proposal on which they were associated. As noted on p. 3 of this report, we concluded
the letters from the Subject's co-Pis were not falsified. Our investigation had not begun when the
Program Director had to make those programmatic determinations, so he had to take those extra
steps to ensure the integrity of the NRI program.
    19 Tab 4 is the subject's response. His Appendices ~ched
    20 The subject's Appendix A has two letters, f r o m - and                                   It is
noteworthy that Appendix A only lists these two letters that were                                (the

                                                  7
and "Turn of Events", neither of which included dates. He does not indicate when
he falsified the letters, but the first entry in the time line is the packaging of the
altered letters together (his Appendix B). It is noteworthy that the subject's
Appendix B lists only Ll, L2, and L3; it does not include L4 or L5. He said he
mistakenly submitted the altered letters with PI, but he did not realize it. After
the hasty submission of P2, he realized the altered letters were included, so he tried
to remove them. He then resubmitted P2 with the correct ones, but "the wrong
("altered") support letters (Appendix B) stayed online and the correct ones
(Appendix A) we got specifically for the NRI grant [PI] ... were left out." 21
The Subject's explanation has multiple flaws. One significant flaw is it does not
explain how L4 and L5 were ever submitted to NSF. The resubmission (P2)
contained nine total letters:
    •   the two from Appendix A, which he said "were left out", but obviously were
        not;
    •   the three altered letters from Appendix B, also part of his explanation;
    •   the two letters from the co-Pis, which were not explained; and
    •   the two additional falsified letters (L4 and L5), which are completely
        unaccounted for in his explanation.
Additionally, the Subject does not explain how he had time between P3 and PI to
get a revised letter from one co-PP2 and a new letter from the other co-Pl23, but he
did not have time to get revised letters from anyone else. Similarly, as noted above,
he had time to significantly edit the text between PI and P2, but not time to solicit
revised letters from LI-L5.
      The Subject's explanation mainly consists of his statements that he was
using letters only as placeholders until he received corrected letters from the
authors. This fanciful explanation is inconsistent with the facts that the Subject
never a) informed the authors he wanted to use their letters on other projects, b)
asked them for revised letters; or c) informed them he edited their letters.
Accordingly, we did not alter our draft report or recommendations.


                                       Recommendations

       Based on the evidence, we recommend NSF take the following actions as a
final disposition in this case:

resubmission of Pl), but not with Pl; nor does Appendix A contain the two letters from his co-Pis
(see first 'paragraph of P- 3).
    21~
    22 . . _ _ .           The date of                      letter for P3 was Jun 2, 2011 and the date
on his revised letter for Pl and P2 is             _
    23
       - - -                     did not provide a letter for P3, but the Subject secured a letter from
him for Pl and P2 dated Nov 3, 2011.

                                                   8
   •    Send the Subject a letter of reprimand informing him that NSF has made a
        finding of research misconduct.24
   •    Complete a responsible conduct of research training program and provide
        documentation of the program's content within 1 year of NSF's finding. The
        instruction should be in an interactive format (e.g., an instructor-led course)
        and specifically include falsification. 25
For a period of 1 year as of the date of NSF's finding:
   •    Require for each document (proposal, report, etc.) to which the Subject
        contributes for submission to NSF (directly or indirectly),
           o the Subject submit a contemporaneous certification that the document
             does not contain plagiarism, falsification, or fabrication. 26
   •    Bar the Subject from participating as a peer reviewer, advisor, or consultant
        for NSF. 27
The Subject's certification and proof of a RCR program completion should be sent to
the Assistant Inspector General for Investigations (AlGI) for retention in OIG's
confidential file on this matter.




   24  A Group I action 45 C.F.R. 689.3(a)(l)(i).
   25  This action is similar to Group I actions 45 C.F.R. 689.3(a)(l).
   2 6 This action is similar to Group I actions 45 C.F.R. 689.3(a)(l)(iii).

   27 A Group III action 45 C.F.R. 689.3(a)(3)(ii).


                                                     9
